March 30, 2009

JAMES J. GALLAGHER
DISTRICT MANAGER, PHILADELPHIA CUSTOMER SERVICE DISTRICT

SUBJECT: Management Advisory – Allegations Concerning Operations and Service in
         the Philadelphia Customer Service District
         (Report Number NO-MA-09-001)

This report presents the results of a joint review of allegations at the Philadelphia
Customer Service District, Philadelphia, PA, by the U.S. Postal Service Office of
Inspector General’s (OIG) Office of Investigations and Office of Audit (Project Number
09XG007NO001). This review was initiated at the request of U.S. Postal Service
management to determine the validity of allegations concerning mail processing,
delivery, transportation, and customer service operations. See Appendix A for
additional information about this review.
Allegations Concerning Operations and Service                               NO-MA-09-001
  in the Philadelphia Customer Service District



Conclusion

Of the 18 allegations, one was substantiated; seven were partially substantiated; and
10 were not substantiated. The details of the substantiated allegation involving report
falsification of delayed First-Class Mail® (FCM) and Standard Mail® is covered in a
separate investigative report.1 The remaining findings resulted from process failures,
not from conspicuously bad conduct or intentional actions to misrepresent conditions.

The substantiated allegation involved the understatement of delayed mail volumes. The
Philadelphia Processing and Distribution Center (P&DC) reported about 19,000 delayed
pieces of FCM in fiscal year (FY) 2008, while other similar-sized facilities had an
average of 1.5 million pieces for the same period.

The partially substantiated allegations involved:

          •   Inadequate processes to ensure that a small amount of mail was not being
              destroyed.
          •   Philadelphia carrier units delayed more mail than the national average during
              the period reviewed.
          •   Mail transported to a plant and returned unprocessed based on a
              miscommunication.
          •   Inadequate processes, equipment problems, and insufficient labeling that did
              not ensure the timely delivery of some FCM, including Business Reply Mail,
              prescription drugs, and laboratory samples.

The following allegations were not substantiated.

          •   Undercounted mail volumes.
          •   Color-coding changed to make it appear as if mail was not late.
          •   Chronic understaffing.
          •   Year-long overtime ban.
          •   Falsified mail volume reports so management could receive performance
              bonuses.
          •   Understaffed carrier operations.
          •   Late or irregular delivery.
          •   Underreported carrier mail volumes.
          •   Carrier overtime prohibited.
          •   Mail shipped to other plants to exclude it from mail counts or hidden in
              trailers.

The Philadelphia Customer Service District experienced periods of increased on-hand
volumes, delayed mail, and customer complaints from October 2007 through December
1
    Investigative Report Number 09UIPA1176IM18IM.




                                                    2
Allegations Concerning Operations and Service                          NO-MA-09-001
  in the Philadelphia Customer Service District


2008. These concerns negatively affected service scores, caused customer complaints,
and in this case, resulted in negative media reports. While many allegations were not
substantiated, the negative exposure can still be detrimental to the Postal Service’s
brand/image and damaging to its reputation. The organization’s ability to quickly
identify and resolve concerns about service and mail conditions protects the brand and
ensures that service to customers is not negatively impacted.

Many of the concerns raised in the allegations reviewed could have been resolved
through better process disciplines; systems of checks and balances; and
communications and outreach with customers, supervisors, and labor organizations.
We are making 13 recommendations addressing these concerns in this report.
Throughout the review, the OIG reviewed findings and recommendations with Postal
Service management, who implemented proactive measures immediately. See
Appendix H for a list of management actions.

Allegations

On December 1, 2008, the Philadelphia Daily News began a series of reports regarding
delayed mail allegedly caused by the chronically understaffed Philadelphia P&DC.
Reports appeared most days from December 1 – 19, 2008, and gave customers’
accounts of not receiving mail in a timely manner, as well as employees’ accounts of
problems in mail processing, delivery, transportation and customer service that led to
the mail delays. See Appendix F for the specific allegations, along with when the
Philadelphia Daily News reported them. Based on these news reports, along with
interviews with employees, union officials, and the staff writer for the newspaper, we
identified 18 allegations.

We summarize the dispositions of the 18 allegations below, along with our conclusions.
We based the conclusions in this report on observations and interviews that began on
December 8, 2008. We cannot attest to any incidents that may have occurred prior to
this date that could affect our conclusions. We conducted analyses and evaluated
trends, which were also used to support our conclusions.




                                                  3
Allegations Concerning Operations and Service                                                   NO-MA-09-001
  in the Philadelphia Customer Service District


Mail Processing Allegations (For a more detailed discussion of these allegations, see
Appendix B.)

                     Allegation                                              Conclusion
1    Undercounting of mail volumes in                         Not Substantiated – Mail volume reporting
     order to justify staffing cuts.                          is reasonably accurate.

2    Undercounting of delayed mail.                           Substantiated – The Philadelphia P&DC
                                                              needs to improve its reporting of delayed
                                                              mail.

     Falsifying mail volume reports.                          Substantiated – There was evidence to
                                                              support the allegation that mail condition
                                                              reports were intentionally falsified. (This
                                                              issue is being addressed separately in a
                                                              report of investigation.)

     Trailers on lot not included in count.                   Not Substantiated – There was no
                                                              evidence that mail was stored in trailers to
                                                              avoid counting it.

3    Color-coding changed to make it                          Not Substantiated – There was no
     appear as if mail was not late.                          evidence to support the allegation that
                                                              color-coding was changed in order to
                                                              intentionally underreport delayed mail
                                                              volume.

4    FCM in waste bins destroyed;                             Partially Substantiated – While incidental
     circulars and other mail destroyed;                      pieces were found in waste bins,2 no
     trucking firm hauled mail away.                          evidence was found that FCM, Periodicals,
                                                              and deliverable Standard Mail were
                                                              intentionally sent for destruction.
                                                              Opportunities exist, however, to better
                                                              review mail destined for waste and
                                                              recycling.

5    The Philadelphia P&DC was                                Not Substantiated – Adequate staffing
     chronically understaffed.                                exists.

6    Year-long overtime ban.                                  Not Substantiated – There was no ban on
                                                              overtime.


2
  Of the estimated 500,000 pieces of recycled mail, we found 80 mailpieces, or .02 percent, in waste bins, which
represented a very small amount of the total mail sent for destruction.




                                                          4
Allegations Concerning Operations and Service                                     NO-MA-09-001
  in the Philadelphia Customer Service District


                   Allegation                             Conclusion
7    Reports were falsified so management Not Substantiated – There was no
     could receive performance bonuses.   evidence of falsified performance reports.
                                          Performance ratings, spot awards, and
                                          compensation awarded to management
                                          were appropriate.

Delivery Allegations (For a more detailed discussion of these allegations, see
Appendix C.)

                  Allegation                                           Conclusion
8    No regular carrier all year; carrier             Not Substantiated – Overall, the
     operation understaffed.                          Philadelphia Customer Service District had
                                                      sufficient carrier staff and regular carriers
                                                      assigned to routes.

9    Late or irregular carrier delivery.              Not Substantiated – Generally, carriers
                                                      made timely deliveries. For example,
                                                      90 percent of carriers returned before
                                                      5:00 p.m., compared to the national
                                                      average of 79 percent.

10 Mail delayed for days in delivery units.           Partially Substantiated – The Philadelphia
                                                      Customer Service District delayed more
                                                      carrier mail than the national average. We
                                                      could not determine the extent of the time
                                                      delays.

     Backlogged mail received in spurts               Not Substantiated – No significant amount
     from the plant, resulting in delayed             of backlogged mail was received from the
     mail.                                            plant.

11 Underreporting of carrier mail volume              Not Substantiated – Automated systems at
   at the stations.                                   the Philadelphia P&DC downloaded
                                                      delivery volumes, which fed directly to the
                                                      delivery unit computer.

12 Overtime prohibition; carriers sent out            Not Substantiated – The Philadelphia
   without full loads and the remainder               Customer Service District did not prohibit
   given to part-time employees to avoid              the use of carrier overtime. There was no
   overtime; supervisors must call for                evidence to support falsified overtime
   overtime approval; carrier overtime                records to reduce carrier hours.
   records are falsified to reduce carrier
   hours.




                                                  5
Allegations Concerning Operations and Service                                      NO-MA-09-001
  in the Philadelphia Customer Service District


Transportation Allegations (For a more detailed discussion of these allegations, see
Appendix D.)

                 Allegation                                           Conclusion
13 Mail shipped to other plants and                   Partially Substantiated –
   returned unworked.                                 Miscommunication caused the return of
                                                      unworked mail in one case.

        Mail routed to other locations so it          Not Substantiated – We did not find
        would not be included in daily count.         evidence that management routinely routed
                                                      mail to other plants to reduce the count.

14 Trailers with mail parked at stations to           Not Substantiated – We did not see any
   hide mail; parked trailers should have             evidence of mail staging at other facilities
   been unloaded and worked.                          to hide mail.

Customer Service (For a more detailed discussion of these allegations, see Appendix
E.)

                  Allegation                                          Conclusion
15 FCM delayed or missing; Business                   Partially Substantiated – While the
   Reply envelopes not returned on                    Philadelphia Customer Service District
   regular basis.                                     delivers almost 96 percent of local mail
                                                      overnight, there were customer-specific
        Passport not received.                        concerns that generated customer
                                                      complaints, such as Business Reply
                                                      envelopes for one particular customer that
                                                      were not returned regularly.

16 Weeks to receive prescription drugs;               Partially Substantiated – Observations
   Periodicals chronically late.                      identified incidental processing delays (we
                                                      could not validate delays of weeks) in
                                                      prescription drugs, Periodicals, and
                                                      Standard flats. Improving processing on
                                                      the APPS3 will address these complaints.

17 Laboratory samples weeks late.                     Partially Substantiated – Improper
                                                      customer labeling of some laboratory
                                                      samples delayed processing. We could
                                                      not determine the extent of these delays.

18 Packages damaged and missing                       Partially Substantiated – Observations
   contents.                                          identified damage to some very small
                                                      packages.

3
    Automated Package Processing System (APPS).




                                                  6
Allegations Concerning Operations and Service                                  NO-MA-09-001
  in the Philadelphia Customer Service District



Criteria

The President’s Commission on the U.S. Postal Service report, dated July 31, 2003,
states that the mission of the Postal Service is

           . . .to provide high-quality, essential postal services to all persons
           and communities by the most cost-effective and efficient means
           possible at affordable and, where appropriate, uniform rates.

Title 39, U.S.C., Part 1, Chapter 4, § 403, states:

           The Postal Service shall plan, develop, promote, and provide
           adequate and efficient postal services at fair and reasonable rates
           and fees.

The web Mail Condition Reporting System (webMCRS) Training/User Guide, dated
March 2005, requires personnel to count all mail volume and report it in webMCRS
categories daily.

Postal Service Network Operations Website, Processing Operations, In-plant Training,
requires Operations Support Specialists (OSS) to consolidate and review data from
operations to ensure the integrity of the information collected. Additionally, the OSS
must audit webMCRS by checking volume numbers from the webMCRS report with
manual counts (verifying counts with data collectors), including compliance with color
code policies.

On June 17, 2008, Postal Service management updated the policy on color-coding,
National Color Code Policy for Standard Mail. The change took effect on August 29,
2008. The Domestic Mail Manual (DMM), Chapter 507, provides instructions for
handling of all classes of nondeliverable mail, including handling of dead mail, which is
mail without a return address.

National Critical Entry Times (CETs) for Destination Entry Standard Mail, June 16,
2008, established a CET for Standard Mail pallets and other containers at 4:00 p.m. and
bed-loaded trailers at 12:00 p.m.

Mail Condition Reporting System Changes for Standard Mail, June 16, 2008, updated
the reporting procedures for delayed flow of Standard Mail to support field initiatives to
improve processing efficiencies and service performance.

Causes

We identified a number of factors that contributed to the validity or partial validity of
some of the allegations. Specifically, the Postal Service did not always:




                                                  7
Allegations Concerning Operations and Service                              NO-MA-09-001
  in the Philadelphia Customer Service District



    •   Conduct regular meetings to foster good employee relations and more readily
        identify and address employees’ concerns.
    •   Provide color code training and supervisory oversight to employees.
    •   Verify delayed mail volume counts conducted by the data collection technicians.
    •   Ensure that mail sent for recycling was properly verified.
    •   Provide adequate street supervision to ensure that carriers deliver mail in a
        timely manner.
    •   Ensure that all mail at carrier stations was delivered in a timely manner.
    •   Provide effective communications and contingency planning when mail is
        directed to other plants for processing.
    •   Expedite mail flow throughout the facility.
    •   Ensure that APPS operations were properly staffed and maintained.
    •   Ensure that the APPS was modified to prevent damage to packages.
    •   Contact mailers to improve labeling and packaging.
    •   Effectively communicate operational issues to employees.

We recommend the Acting District Manager, Philadelphia Customer Service District,
take the following actions, to be completed no later than the end of FY 2009:

    1. Provide color-code training and supervisory oversight to employees.

    2. Verify the delayed mail volume counts conducted by data collection technicians.

    3. Conduct regular meetings to foster good employee relations and more readily
       identify and address employees’ concerns.

    4. Ensure that mail sent for recycling is properly verified.

    5. Improve street supervision to ensure that carriers deliver mail in a timely manner.

    6. Ensure that mail at carrier stations is delivered in a timely manner.

    7. Improve communications and contingency planning when mail is directed to
       other plants for processing.

    8. Expedite mail flow throughout the facility.

    9. Ensure Automated Package Processing System operations are properly staffed
       and maintained.

    10. Modify the Automated Package Processing System to reduce damage to
        packages.




                                                  8
Allegations Concerning Operations and Service                             NO-MA-09-001
  in the Philadelphia Customer Service District


    11. Contact mailers to improve labeling and packaging.

    12. Effectively communicate operational issues to employees.

    13. Evaluate staffing at each mail processing operation and delivery unit.

Management’s Comments

Management agreed with the findings and recommendations. They agreed that
stronger process disciplines and better communications could have prevented many
issues and concerns. Management’s reponse also indicated they have taken or will be
taking numerous actions to correct the issues, including conducting training, adjusting
staffing, and modifying machines, as necessary. See Appendix I for management’s
comments. Management provided extensive documentation that supports their
corrective actions. While we have not included this information in this report, it is
available upon request.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations. Regarding recommendation number 5,
management subsequently provided comments stating they would provide increased
oversight of carrier street performance, including audits of collection routes.
Additionally, the district’s delivery program and finance managers will audit individual
delivery units to ensure delivery oversight processes are in place. Management’s
corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                                  9
Allegations Concerning Operations and Service          NO-MA-09-001
  in the Philadelphia Customer Service District


cc:     Patrick R. Donahoe
        Megan J. Brennan
        William P. Galligan
        Anthony M. Pajunas
        David E. Williams, Jr.
        Daniel P. Muldoon
        Katherine S. Banks




                                                  10
Allegations Concerning Operations and Service                              NO-MA-09-001
  in the Philadelphia Customer Service District


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG developed a risk model utilizing 11 performance indicators to rank Postal
Service districts by overall performance. In FY 2008, the model identified the
Philadelphia Customer Service District one of the most at-risk districts. As the OIG
initiated fieldwork to review performance of the Philadelphia P&DC, news articles began
to report damaged, delayed, and destroyed mail, as well as numerous employee
complaints. Consequently, we expanded our review to include allegations about mail
processing, transportation, and delivery operations in the Philadelphia Customer
Service District. Several allegations suggested the possibility of criminal intent, so;
therefore, the project became a joint effort between OIG Audit and Investigations staff.

The Philadelphia P&DC was originally located at 2970 Market Street, adjacent to the
30th Street train station, and consisted of four Postal Service-owned facilities, including
the five story P&DC. The Board of Governors approved a new facility in August 2003.
The Postal Service activated the new $272 million building, consisting of 910,059
square feet on two levels, in June 2006. The Philadelphia P&DC processes
approximately 6 million pieces of mail daily for ZIP Code areas 190 and 191.

The purpose of the new facility was to eliminate existing constraints that resulted from
operating out of two buildings on multiple levels in a downtown metropolitan location.
The Decision Analysis Report prepared for the project recommended that the new
facility improve operational efficiencies, provide better service to customers, and reduce
labor-intensive activities. Opening the new facility resulted in transferring almost 800
employees from the Philadelphia Customer Service District to surrounding areas.

On December 1, 2008, the Philadelphia Daily News began a series of reports alleging
delayed mail service in the Philadelphia Customer Service District. The articles were
published almost daily through December 19, 2008. This report addresses those
allegations. See Appendix F for a complete list of the allegations and when they were
reported.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the validity of allegations concerning mail processing,
delivery, transportation, and customer service operations in the Philadelphia Customer
Service District. To achieve this objective, we analyzed media reports, customer
complaints, mail volume, service scores, delayed mail trends, and training records, and
we interviewed Postal Service officials and employees. Additionally, we interviewed
union officials, the legal counsel for the union, and the newspaper staff writer. We
visited a recycling center; the Philadelphia P&DC, Bulk Mail Center (BMC), and Airmail
Center (AMC); district offices; and selected carrier units. We judgmentally selected nine
delivery units based on city delivery performance indicators for Quarter 4, fiscal year




                                                  11
Allegations Concerning Operations and Service                             NO-MA-09-001
  in the Philadelphia Customer Service District


(FY) 2008. The carrier units selected for observation were the lower performers in the
following three city delivery performance indicators for Quarter 4, FY 2008: (1) carriers
returning after 5:00 p.m.; (2) customer service delivery delayed mail; and (3) delivery
overtime. The nine units selected were West Chester, Paoli, Levittown, Fairmount,
Torresdale, Southwark, Telford, Bensalem, and Upper Darby. The scope of the data
analysis reviewed for the carrier operations was Quarter 1, FY 2006, to Quarter 1, FY
2009.

We used computer-processed data from the following systems:

    •   Web Enterprise Information System
    •   Enterprise Data Warehouse
    •   Transportation Information Management Evaluation System (TIMES)
    •   Vehicle Information Transportation Analysis Logistics System (VITALS)
    •   Transportation Contract Support System (TCCS)
    •   Delivery Operations Information System (DOIS)

We did not test controls over these systems. However, we checked the resonableness
of results by confirming our analyses and results with Postal Service managers and
multiple data sources.

We conducted this review from December 2008 through March 2009 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our observations and conclusions with management officials on January
27, 2009, and included their comments where appropriate. We based our conclusions
on observations and interviews that began on December 8, 2008. We cannot attest to
any incidents that may have occurred prior to December 8, 2008, that could affect our
conclusions. We conducted analyses and evaluated trends, which were also used to
support our conclusions.




                                                  12
    Allegations Concerning Operations and Service                                     NO-MA-09-001
      in the Philadelphia Customer Service District


    PRIOR AUDIT COVERAGE

                               Report Number and
     Report Title                                                         Report Results
                                Final Report Date
Activation of the                NO-AR-08-004,             We found that not all activation steps were
Philadelphia                      July 10, 2008            fully implemented, resulting in significant mail
Processing and                                             delays.
Distribution Center
Timeliness of Mail                NO-AR-09-002,            We found that opportunities existed to
Processing at the San            January 29, 2009          process mail volume in a more timely
Juan Processing and                                        manner.
Distribution Center
Delayed Mail at the               NO-AR-08-006,            During FY 2007, the North Texas P&DC had
North Texas                       August 14, 2008          difficulty with timely processing of all types of
Processing and                                             mail. However, by March 2008,
Distribution Center                                        management made significant progress in
                                                           reducing the amount of delayed mail.
Timeliness of Mail                NO-AR-07-012,            We recommended management provide
Processing at the               September 28, 2007         consistent, high-quality supervision and
Chicago, Illinois                                          training; improve planning; make employees
Cardiss Collins                                            accountable; and continue monitoring and
Processing and                                             adjusting mail processing operations to
Distribution Center                                        ensure the timely processing of mail.
Timeliness of Mail                 NO-AR-07-001,           We recommended management correct
Processing at the Los             February 9, 2007         deficiencies in the timely processing of
Angeles Processing                                         Periodicals and Standard Mail.
and Distribution Center
Mail Processing at the            NO-AR-07-007,            We recommended management implement
Southeastern                      August 6, 2007           procedures for utilizing capacity at other
Processing and                                             facilities when volume at the Southeastern
Distribution Center                                        P&DC exceeds capacity, and instruct plant
                                                           managers to process mail using the first-in
                                                           first-out method.
The Impact of                     NL-AR-07-008,            We concluded that neither local nor
Transportation on               September 28, 2007         nationwide network transportation issues
Chicago District                                           were root causes or significant contributors to
Performance                                                Chicago’s performance challenges.
                                                           However, we also concluded that district
                                                           transportation was not efficient or cost-
                                                           effective and transportation issues were
                                                           potentially causing inaccurate and
                                                           understated mail counts.




                                                      13
Allegations Concerning Operations and Service                                                     NO-MA-09-001
  in the Philadelphia Customer Service District


                    APPENDIX B: MAIL PROCESSING DETAILED ANALYSIS

Total Mail Volume Reporting

Allegation: The Philadelphia P&DC undercounted mail volume to justify staffing cuts.

Conclusion: Not Substantiated – Mail volume recording was reasonably accurate.

Basis for Conclusion:

           •   The majority of mail volume is machine-counted and recorded through the
               automated Management Operating Data System (MODS), which limits
               possible manipulation by postal managers.
           •   Comparison of the Philadelphia P&DC’s volume to similar-sized sites
               (Group 1 Plants4) revealed no irregularities. For example, in FY 2008,
               Philadelphia P&DC’s First Handled Pieces (FHP) total volume was 2.1 billion,
               compared to the Group 1 Plant average of 1.8 billion. Philadelphia P&DC’s
               FHP volumes declined by 1.28 percent, while the Group 1 Plants increased
               by .59 percent. In addition, Philadelphia’s Total Pieces Handled (TPH)
               volume increased, while the average for similar-size sites declined. For
               example, Philadelphia P&DC’s TPH increased by 4.26 percent, compared to
               the Group 1 decrease of 4.53 percent. The Postal Service uses TPH volume
               to determine staffing requirements. See Appendix G, Table 1 for additional
               details.

Delayed Mail Reporting

Allegations:

           •   Undercounting of delayed mail.
           •   Falsifying mail volume reports.
           •   Trailers of mail on lot not included in count.

Conclusion: First and Second Substantiated – The Philadelphia P&DC needs to better
report delayed mail. There was evidence to support that mail condition reports were
intentionally falsified. (This issue is covered separately in a report of investigation.)

Third Not Substantiated – We found no evidence that mail was stored in trailers to avoid
counting.




4
    Group 1 plants are the 36 largest volume plants, based on FY 2006 Breakthrough Productivity Initiative groupings.




                                                           14
Allegations Concerning Operations and Service                                      NO-MA-09-001
  in the Philadelphia Customer Service District


Basis for Conclusion:

            Comparison of the Philadelphia P&DC delayed mail volumes to similar-sized
             sites (Group 1 Plants) revealed irregularities and indicated that the
             Philadelphia P&DC was not properly reporting all its delayed mail volumes.
             For example, in FY 2008, Philadelphia’s delayed FCM was 19,000 pieces,
             while the average for Group 1 Plants was 1.5 million pieces. During this
             same period, Periodicals delays for the Philadelphia P&DC totaled 1.8 million
             pieces, and the Group 1 Plant average was 2.9 million pieces. See
             Appendix G, Tables 2 and 3, for additional information on delayed mail
             reporting.
        •    A significant decrease in delayed FCM volumes did not result in a significant
             increase in service scores. For example, there was a 98 percent decrease in
             delayed FCM volume. However, the Philadelphia P&DC’s service scores
             remained below the national average without showing any significant change.
        •    Observations corroborated our analysis that delayed mail was misreported.
             For example, during our first week of observations, we found about 451,000
             pieces of delayed First-Class and Standard Mail that were not reported.
             Additionally, 426,398 pieces of delayed Standard Mail were not reported.
             However, this was the result of confusion about the new color code policy.
             This mail would not have been reported under the prior policy. The estimated
             451,000 pieces of unreported delayed mail included the following.

                     FCM with no time of arrival indicated, accepted several days earlier at
                      another Philadelphia unit (see Illustration 1, page 16).
                     Missent Mail5 (see Illustration 2, page 16), Backflow Mail6 (see
                      Illustration 3, page 16) and Loop Mail7 (see Illustration 4, page 16).
                     Delayed mail resulting from machine breakdowns.
                     Standard Mail that was not included because the supervisor did not
                      submit the count sheet.

        •    There was evidence to support that mail condition reports were intentionally
             falsified.
        •    Our examination of 38 trailers showed that no mail was stored in trailers in
             order to exclude it from delayed mail counts.




5
  Missent mail is mail sent to the wrong station.
6
  Backflow mail is mail that requires additional sortation.
7
  Loop mail is mail showing barcode information that does not match the address.




                                                        15
Allegations Concerning Operations and Service                                                 NO-MA-09-001
  in the Philadelphia Customer Service District




Illustration 1: Eight pallets (about 363,000                 Illustration 2: Missent flats (about 35,000
pieces) of First-Class Mail accepted on                      pieces) sent to the incorrect stations on
December 8, 2008, in the Philadelphia P&DC.                  December 9, 2008, returned to the P&DC, and
These pallets were on-hand the morning of                    not included in the inventory.
December 10, 2008, and had not been reported
as delayed.




Illustration 3: Backflow mail – mail returned by             Illustration 4: Loop mail (about 11,000 pieces)
the stations for additional sortation, not                   not reported as delayed on December 10, 2008.
reported as delayed (about 30,000 flat pieces)
on December 10, 2008.

Color-Coding8

Allegation: Color-codes on mail bins were changed at the Philadelphia P&DC to make it
appear as if mail was not late.

Conclusion: Not Substantiated – There was no evidence to support that color-coding
was changed in order to intentionally underreport delayed mail volume. However, we
found opportunities for color-coding improvements.


8
  The Postal Service uses a system of color-coding to facilitate the timely processing, dispatch, and delivery of
Standard Mail to meet established service standards. The purpose of color-coding is to sequence the mail to ensure
first-in, first-out processing.




                                                        16
Allegations Concerning Operations and Service                                         NO-MA-09-001
  in the Philadelphia Customer Service District


Basis for Conclusion:

        •   Interviews with management and employees as well as reviews of electronic
            records did not provide evidence to show that color-codes were intentionally
            changed to misreport mail delays. Specifically:

                    Mail containers bearing different color-code tags processed together
                     correctly received the color-code marker of the oldest mail. However,
                     because of poor communications, some employees believed that
                     management had improperly changed the color-code.
                    Eighteen of 54 (33 percent) containers received from the BMC were
                     incorrectly color-coded, which could appear to employees that color-
                     code tags were improperly changed.
                    Management directed some employees to change color-codes in
                     accordance with the new policy, which could appear to employees
                     unfamiliar with the new policy that color-codes were improperly
                     changed.

        •   Our observations showed that generally, mail was color-coded, but
            opportunities for improvement exist. (See Illustrations 5 and 6 below.)
            Specifically, of 436 containers reviewed:

                    Forty-eight, or 11 percent, were missing a color-code tag.
                    Thirty-four, or 8 percent, had neither date nor time recorded on the
                     color-code tag.
                    Seventy, or 16 percent, had an incorrect color tag.




Illustration 5: Container missing a color-code,    Illustration 6: Color-code date changed to reflect
December 10, 2008.                                 proper date following the policy change,
                                                   December 9, 2008.




                                                  17
Allegations Concerning Operations and Service                                                  NO-MA-09-001
  in the Philadelphia Customer Service District



Mail Safeguarding

Allegations:
       • FCM in waste bins destroyed.
       • Circulars and other mail destroyed.
       • Trucking firm hauled away 19 tons of “waste mail” to be destroyed.

Conclusion: Partially Substantiated – Although incidental pieces were found in waste
mail, no evidence suggested that FCM was intentionally sent for destruction.
Opportunities exist to better review mail destined for waste and recycling.

Basis for Conclusion:

        •    Observations revealed a small amount of mail erroneously sent for recycling.
             Specifically:

                     On December 10, 2008, Auditors found 10 pieces of FCM, which was
                      0.06 percent of approximately 17,000 mailpieces examined,
                      erroneously designated for recycling. (See Illustration 7.)
                     On December 11, 2008, Auditors found 75 pieces9 of deliverable mail
                      and 15 pieces of Mail Recovery Center mail designated erroneously for
                      recycling. The 90 mailpieces represented 0.5 percent of the
                      approximately 17,000 mailpieces examined. (See Illustration 8.)
                     Special Agents reviewed 19 tons of mail, or approximately 500,00010
                      mailpieces, at the recycling center. (See Illustrations 9 and 10 on page
                      19.) Of the 500,000 pieces examined, 80 pieces of FCM and 1,639 of
                      deliverable Standard Mail were erroneously sent by the Philadelphia
                      P&DC for recycling. The 1,719 pieces represented approximately 0.3
                      percent of the total mailpieces examined.




9
  The 75 mailpieces found in the In-House container designated for recycling included 13 pieces of FCM,
27 Periodicals, 34 pieces of deliverable Standard Mail, and one Priority mailpiece.
10
   Based on MODS conversion factors.




                                                        18
Allegations Concerning Operations and Service                                      NO-MA-09-001
  in the Philadelphia Customer Service District


Illustration 7: Ten pieces of First-Class Mail, or 0.06   Illustration 8: Seventy-five pieces of deliverable mail
percent of approximately 17,000 pieces examined,          and 15 pieces of mail that should have been
designated erroneously for recycling on December          directed to the Mail Recovery Center were
10, 2008.                                                 designated erroneously for recycling. These items
                                                          were found in-house, labeled as waste, on
                                                          December 11, 2008.




Illustration 9: Special Agents reviewing discarded        Illustration 10: Nineteen tons of discarded mail at the
mail at the Recycling Plant, Elmwood Park, NJ,            Recycling Plant, Elmwood Park, NJ, December 30,
December 30, 2008.                                        2008.

Staffing

Allegation: The Philadelphia P&DC has been chronically understaffed since opening the
new facility in 2006.

Conclusion: Not Substantiated – Adequate staffing exists.

Basis for Conclusion:

        •   A productivity comparison to similar-size Group 1 Plants showed that the
            Philadelphia P&DC had lower FHP productivity than most of the other sites,
            ranking in the bottom half (21 out of 36 plants). In addition, for the
            Philadelphia P&DC to achieve the average Group 1 Plant productivity level of
            806 pieces per hour it would need to reduce annual workhours by 40,000, or
            the equivalent of 23 full-time employees.
        •   Our observations showed that some operations had idle employees while
            other operations could have used additional staffing. The Philadelphia P&DC
            should perform a staffing analysis.
        •   The Philadelphia P&DC did not fully utilize its staff. In some instances,
            employees left the building for extended periods or were observed sleeping
            while on the clock.




                                                   19
Allegations Concerning Operations and Service                               NO-MA-09-001
  in the Philadelphia Customer Service District



Overtime

Allegation: Staffing shortages were the result of a year-long ban on overtime.

Conclusion: Not Substantiated – There was no ban on overtime.

Basis for Conclusion:

        •   Interviews conducted with supervisors and managers concerning a ban on
            overtime revealed that there was no blanket ban on scheduling overtime.
            Both supervisors and managers stated that when volume warranted the
            scheduling of overtime, it was scheduled.
        •   The Philadelphia P&DC used 104,000 hours of overtime, or 4 percent of its
            total 2.6 million mail processing workhours, in FY 2008.
        •   A comparison of the Philadelphia P&DC’s overtime percentages with the
            Eastern Area showed that at times, the Philadelphia P&DC used more
            overtime than the average of other Eastern Area processing facilities. See
            Appendix G, Chart 1 for additional details.

Management Bonuses

Allegation: Performance bonuses were fraudulently obtained through systematic
falsification of official government records, diversion of mail and destruction of mail.

Conclusion: Not Substantiated – Performance ratings, spot awards, and compensation
awarded to the Philadelphia P&DC managers were appropriate and justified based on
FY 2008 individual performance.

Basis for Conclusion:

        •   The majority of spot awards were awarded to craft employees; 93 craft
            employees received a total of $27,150.
        •   Twenty-six Executive and Administrative employees received awards totaling
            $24,700.
        •   A Supervisor of Distribution Operations received the largest management
            bonus of $2,000 for increasing Delivery Point Sequencing percentages.
        •   Two senior managers received spot awards of $1,500 each.
        •   Performance ratings were not based on information reported in the daily mail
            condition report. The Pay for Performance system does not factor in the daily
            mail condition report.




                                                  20
Allegations Concerning Operations and Service                               NO-MA-09-001
  in the Philadelphia Customer Service District


            APPENDIX C: DETAILED ANALYSIS OF DELIVERY ALLEGATIONS

Carrier Staffing

Allegations:

        •    No regular carrier all year.
        •    Carrier operation understaffed.

Conclusion: Not Substantiated – Overall, the Philadelphia Customer Service District had
sufficient carrier staff and regular carriers assigned to routes.

Basis for Conclusion:

        •    The district’s overall average city carrier staffing ratio was 1.49 carriers per
             route for FY 2008, compared to the national average of 1.45 carriers per
             route. This indicated that staffing was adequate. See Appendix G, Table 4,
             for additional details.
        •    Eight of the nine units in our sample had adequate staff and regular carriers
             assigned to routes. However, one of the nine units may require an evaluation
             of its carrier staff. West Chester Station had a carrier-staffing ratio of
             1.20 carriers per route, indicating a possible shortage. This unit is assigned
             91 carriers to cover 70 routes; however, only 84 regular carriers are currently
             performing city carrier functions. Seven carriers were on military deployment,
             extended sick leave, or other leave. Postal Service Headquarters
             recommends a staffing ratio of 1.33 to 1.37 carriers per route. At levels below
             1.20, there is a risk that not all routes will be covered.

Delivery Times

Allegations:

        •    Late or irregular carrier delivery to customers.
        •    Carriers scheduled later, resulting in later deliveries.

Conclusion: Not Substantiated – 90 percent of carriers returned before 5:00 p.m.
compared to the national average of 79 percent.

Basis for Conclusion:

        •    A review of the Philadelphia Customer Service District’s “Carrier return by
             1700” report indicated that carriers generally returned before 5:00 p.m. From
             Quarter 4, FY 2007, to Quarter 1 FY 2009, more Philadelphia Customer
             Service District carriers returned before 5:00 p.m. than the national average.
             For example, in Quarter 1, FY 2009, an average of 90 percent of carriers



                                                  21
Allegations Concerning Operations and Service                             NO-MA-09-001
  in the Philadelphia Customer Service District


            returned before 5:00 p.m., compared to the national average of 79 percent.
            By the end of the Quarter 1, FY 2009, 98 percent of the carriers returned
            before 5:00 p.m. See Appendix G, Chart 2, for additional details.
        •   The Philadelphia Customer Service District’s managed service point scan
            percentage was slightly lower than the national average of 94 percent;
            however, 88 percent of deliveries were made on time.
        •   Although Philadelphia Customer Service District carriers generally made
            deliveries on time, opportunities exist for improvement. For example, street
            efficiency, as measured in deliveries per hour, for the district was 87.9
            percent, while the national rate was 93.7 percent. Improved street
            supervision could result in more efficient deliveries.

Delayed Mail Reporting

Allegations:

        •   Mail delayed for days in delivery units.
        •   Mail held back to avoid overtime.
        •   Backlogged mail received in spurts from the plant.

Conclusion: Partially Substantiated – The Philadelphia Customer Service District
delayed more carrier mail than the national average. We could not determine the length
of time the mail was delayed. No significant amount of backlogged mail was received
from the plant.

Basis for Conclusion:

        •   The Philadelphia Customer Service District delayed more carrier mail than the
            national average, indicating opportunities for improvement exist. For
            example, delayed carrier mail was 0.9 percent in Quarter 1, FY 2009,
            compared to the national average of 0.5 percent.
        •   Although our review showed an overall downward trend in delayed mail over
            the last 3 years, customer service delayed volume increased by
            approximately 5.5 million pieces from Quarter 3, FY 2008, to Quarter 1, 2009.
            See Appendix G, Chart 3, for additional details.

Volume Reporting

Allegation: Underreporting of carrier mail volume at the stations.

Conclusion: Not Substantiated – Volume recording and reporting is largely automated.




                                                  22
Allegations Concerning Operations and Service                              NO-MA-09-001
  in the Philadelphia Customer Service District



Basis for Conclusion:

        •   Mail processed for the delivery units is accounted for on the End-of-Run
            Reports from the plant and is downloaded into DOIS.
        •   Recorded mail volumes follow national trends. See Appendix G, Chart 4, for
            additional details.

Overtime

Allegations:

        •   Overtime prohibited.
        •   Carriers sent out without full loads and the remainder of the loads given to
            part-time employees to avert overtime.
        •   Supervisors must make a phone call to have overtime approved.
        •   Carrier overtime records falsified to reduce carrier hours.

Conclusion: Not Substantiated – The Philadelphia Customer Service District did not
prohibit the use of carrier overtime and we did not find any basis for carriers being sent
out without full loads of mail. We found no incidences of supervisors making phone
calls to have overtime approved and no basis for overtime records being falsified to
reduce carrier hours.

Basis for Conclusion:

        •   A comparison of the Philadelphia Customer Service District’s overtime rate to
            the national average showed that the district used more overtime than the
            national average. For example, in FYs 2006 through 2008, the district had an
            overtime rate of 18 percent, compared to the national average of 15.5
            percent. See Appendix G, Chart 5, for additional details.
        •   All nine units visited had overtime, ranging from 13.16 to 24.05 percent.
        •   There was no evidence that clock rings were falsified to reduce overtime.




                                                  23
Allegations Concerning Operations and Service                                NO-MA-09-001
  in the Philadelphia Customer Service District


    APPENDIX D: DETAILED ANALYSIS OF TRANSPORTATION ALLEGATIONS

Mail Diversion

Allegations:

        •   Mail shipped to other plants and returned unworked.
        •   Mail routed to other locations so it would not be included in the daily count.

Conclusion: Partially Substantiated – Miscommunication caused the return of unworked
mail in one case; however, we did not find evidence that management routinely routed
mail to other plants to reduce the count.

Basis for Conclusion:

        •   For approximately 1 week in September 2008, the Philadelphia P&DC routed
            standard letter mail to the Horsham Post Office (PO) for processing because
            the Philadelphia P&DC was in a delayed mail status. On the first day of
            processing, there was a miscommunication between the facilities, and
            Horsham PO returned the mail to the Philadelphia P&DC without processing
            it. The mail was then returned to Horsham PO and processed. Employees
            might have misconstrued this situation as mail being routed to other plants to
            reduce the mail count.
        •   Strong working relationships existed between the Philadelphia P&DC and
            stations for the processing of 5-digit standard flats. Stations prepared the
            mail (unwrap and unband it) and returned it for processing on flat sorting
            machines, eliminating sortation at the clerical level at the stations.
            Employees could also misconstrue this practice as routing unsorted mail to
            other plants and returning it unworked.
        •   The Philadelphia P&DC routinely sent mail to other facilities to leverage
            processing capacity, not to exclude it from being included in the daily count.
            These facilities included:
                 Horsham PO
                 South Jersey P&DC
                 Philadelphia Logistics and Distribution Center
                 Southeastern P&DC
                 Philadelphia AMC
                 Philadelphia BMC

Mail Staging

Allegations:

        •   Trailers with mail parked at stations to hide mail.
        •   Parked trailers should have been unloaded and worked.



                                                  24
Allegations Concerning Operations and Service                               NO-MA-09-001
  in the Philadelphia Customer Service District


Conclusion: Not Substantiated – We did not see any evidence of staging mail at other
facilities in order to hide mail.

Basis for Conclusion:

        •   Based on discussions with employees, we identified several facilities
            suspected of hiding mail. We visited these facilities and examined the
            contents of 54 trailers both on the docks and in the yards. We found no
            trailers that were hiding mail. See Appendix G, Table 5, for additional details.




                                                  25
Allegations Concerning Operations and Service                              NO-MA-09-001
  in the Philadelphia Customer Service District


  APPENDIX E: DETAILED ANALYSIS OF CUSTOMER SERVICE ALLEGATIONS

First-Class Mail

Allegations:

        •   FCM delayed or missing, including:

                   No response to fundraising letters
                   Delayed bill payments
                   Delayed mortgage payments, generating late fees
                   Lost wedding invitations
                   Delayed event invitations
                   Banks, law firms, and other businesses not receiving mail
                   Delayed greeting cards
                   Nonreceipt of passport

Conclusion: Partially Substantiated – While the Philadelphia Customer Service District
delivered almost 96 percent of local mail overnight, the other 4 percent may have
generated customer complaints, such as delayed FCM that included passports and
Business Reply envelopes for a particular customer that were not returned on a regular
basis.

Basis for Conclusion:

        •   The national average for overnight service has consistently been higher than
            the Philadelphia Customer Service District. See Appendix G, Chart 6, for
            additional details.
        •   Interviews with a customer and station manager identified improper handling
            of business reply mail.
        •   During observation, we identified various stages of processing operations with
            delayed FCM mail, including:

                   Induction
                   Manual operations
                   APPS operations
                   Loop mail
                   Missent mail
                   Postal Automated Redirection System

See our previous discussion in Appendix B, Underreporting of Delayed Mail.




                                                  26
Allegations Concerning Operations and Service                                                       NO-MA-09-001
  in the Philadelphia Customer Service District


Prescriptions, Periodicals, and Standard Flats

Allegations:

           •    Weeks to receive prescription drugs.
           •    Newspaper losing 30 percent of subscribers due to late delivery.
           •    Periodicals chronically late.

Conclusion: Partially Substantiated – Observations identified incidental processing
delays in prescription drugs, Periodicals, and Standard flats. Improving processing on
the APPS will address the complaints.

Basis for Conclusion:

           •    The Philadelphia Customer Service District has a greater reject rate11 than
                the national average, which could result in mail delays. For example, in FY
                2008, the reject rate on the Philadelphia P&DC APPS was 14.7 percent,
                compared to the national average of 10.9 percent. See Appendix G, Chart 7,
                for additional details. Observations identified potential improvements in the
                culling and preparation of mail, which may decrease reject rates. Specifically:

                       For certain types of mail, we suggest additional staffing for culling
                        operations. (See Illustration 11, page 27.)
                       Improved packaging of prescription drugs would decrease fly-aways
                        and machine jams. (See Illustration 12, page 27.)

           •    Proper maintenance on the APPS could reduce the risk of delays. For
                example, the December 7, 2008, APPS breakdown caused the delay of
                approximately 11,000 mailpieces. The APPS was out of service for 36 hours
                before a qualified technician arrived.
           •    APPS reject mail was not directed to manual operations in a timely manner,
                but was sometimes looped between the two APPS, causing delays. (See
                Illustration 13, page 27.)
           •    During our observations, manually processed mail that could not be
                processed on the APPS was not completely finalized to meet service
                standards.
           •    Mail searches not conducted properly, resulting in mail delays. For example,
                one mailpiece was delayed by 5.5 weeks because of poor mail searches.
                (See Illustration 14, page 28.)




11
     Percentage of mail not accepted for processing by a particular piece of automated equipment.




                                                           27
Allegations Concerning Operations and Service                                       NO-MA-09-001
  in the Philadelphia Customer Service District




Illustration 11: Better culling with additional    Illustration 12: Prescription mail processed on
staffing could improve APPS processing,            the APPS was subject to high volume of fly-
December 11, 2008.                                 aways and missorting, December 11, 2008.




Illustration 13: Rolling Stone magazines dated         Illustration 14: This package, caught below the
November 13 that had been looped between the           APPS, was scanned on November 28, 2008.
two APPS machines, resulting in delayed                After an OIG request, the package was removed
Periodicals, December 8, 2008.                         on January 6, 2009. A carrier delivered the
                                                       package in Austin, TX, on January 12, 2009.

Laboratory Samples

Allegation: Laboratory samples arriving weeks late, delaying diagnosis and treatment.

Conclusion: Partially Substantiated – Improper customer labeling of some laboratory
samples delayed processing. We could not determine the length of those delays.




                                                  28
Allegations Concerning Operations and Service                                      NO-MA-09-001
  in the Philadelphia Customer Service District


Basis for Conclusion:

        •   Mailers and other Postal Service facilities sometimes incorrectly labeled
            laboratory samples as hazardous material or HAZMAT, creating special
            handling procedures that could result in mail delays. (See Illustrations 15 and
            16.)
        •   The APPS cannot easily sort laboratory samples, which are generally round.
            The Philadelphia P&DC must rely on manual sortation; however, no
            consistent workforce was assigned, resulting in mail delays.




Illustration 15: Incorrectly labeled container         Illustration 16: Tubs of unworked lab
received at the Philadelphia P&DC.                     samples sit in a container labeled
                                                       “HAZMAT.”

Small Parcel Handling

Allegation: Packages damaged and missing contents.

Conclusion: Partially Substantiated – Observations identified opportunities to improve
processing of very small packages.

Basis for Conclusion:

        •   Our observations of APPS operations showed that small parcels occasionally
            became stuck and damaged between two belts on one APPS machine. A
            modification similar to that made to the other APPS may prevent future
            damage to small parcels. (See Illustrations 17 and 18 on page 30.)




                                                  29
Allegations Concerning Operations and Service                                     NO-MA-09-001
  in the Philadelphia Customer Service District




Illustration 17: Small package damaged in          Illustration 18: Modification of the other APPS
space between APPS feeder belts.                   machine with a broom-type sweep eliminates
                                                   parcel damage and slip-through.




                                                  30
Allegations Concerning Operations and Service                                  NO-MA-09-001
  in the Philadelphia Customer Service District


             APPENDIX F: PHILADELPHIA CUSTOMER SERVICE DISTRICT
                     ALLEGATIONS IDENTIFIED BY SOURCE

                                                      Reported by the Philadelphia
                   Allegation
                                                            Daily News on:
                                                  December 1, 2, 4, 5, 9, 10, 12, and
 Undercounting of Mail Volumes
                                                  15, 2008
 Undercounting of Delayed Mail;                   December 1, 2, 3, 4, 6, 8, 9, and 15,
 Falsifying Mail Volume Reports; Trailers         2008
 on Lot Not Included in Count
 Color-Coding Changed to Make it                  December 1, 5, 9, 10 and 15, 2008
 Appear as if Mail Was Not Late
 First-Class Mail in Waste Bins                   December 1, 2, 5, 8, 9, 10, 11, and
 Destroyed; Circulars and Other Mail              15, 2008
 Destroyed; Trucking Firm Hauled Away
 Deliverable Mail
 Philadelphia P&DC Chronically                    December 1, 2, 3, 8, 9, and 16, 2008
 Understaffed
 Staffing Shortages the Result of Year-           December 1, 3, 4, 5, 6, 8, 10, and 15,
 Long Overtime Ban                                2008
 Reports Falsified so Management Could            December 1, 8, 10, and 15, 2008
 Receive Performance Bonuses
 No Regular Carrier All Year; Carrier             December 3 and 8, 2008
 Operation Understaffed
 Late or Irregular Carrier Delivery               December 3, 5, and 19, 2008
 Mail Delayed for Days in Delivery Units;         December 4 and 5, 2008
 Backlogged Mail Received in Spurts
 from the Plant
 Underreporting of Carrier Mail Volume            December 5 and 16, 2008
 at the Stations
 Overtime Prohibition; Carriers Sent Out          December 5 and 6, 2008
 Without Full Loads and the Remainder
 Given to Part Time Employees to Avert
 Overtime; Supervisors Must Call for
 Overtime Approval; Carrier Overtime
 Records Falsified to Reduce Carrier
 Hours
 Mail Shipped to Other Plants and                 December 1, 2, 8, 10, and 15, 2008
 Returned Unworked; Mail Routed to
 Other Locations so it Would Not be
 Included in Daily Count
 Trailers with Mail Parked at Stations to         December 1 and 5, 2008
 Hide Mail; Parked Trailers Should Have
 Been Unloaded and Worked




                                                  31
Allegations Concerning Operations and Service                                NO-MA-09-001
  in the Philadelphia Customer Service District


               Allegation                                       Source
 First-Class Mail Delayed and Missing;            December 1, 2, 3, 9, and 15, 2008
 Business Reply Envelopes Not
 Returned on Regular Basis; Passport
 Not Received
 Weeks to Receive Prescription Drugs;             December 1, 2, 8, 12, and 15, 2008
 Periodicals Chronically Late
 Laboratory Samples Weeks Late                    December 4 and 8, 2008
 Packages Damaged and Missing                     December 4, 2008
 Contents




                                                  32
Allegations Concerning Operations and Service                                          NO-MA-09-001
  in the Philadelphia Customer Service District


                             APPENDIX G: TABLES AND CHARTS

   Table 1: Philadelphia Processing Volume Compared to Group 1 (Similar-Size)
                                     Plants
                                           Group 1 Plants
                                  FY 2007               FY 2008                    Percent Change*
FHP                          64,154,402,035         64,534,711,590                        0.59
TPH                         125,847,229,192        120,147,962,543                       -4.53
Workhours                     87,199,471.74         80,091,994.88                        -8.15
FHP / Workhours                     736                   806                             9.52
TPH / Workhours                    1,443                 1,500                            3.94
Overtime                         9,377,668             5,033,531                        -46.32
Overtime Percent                   10.75                  6.28                          -41.56
Handling Ratio                      1.96                  1.86                           -5.09
                                         Philadelphia P&DC
                                  FY 2007               FY 2008                     Percent Change
FHP                           2,082,224,460          2,055,651,673                       -1.28
TPH                           3,625,726,560          3,780,363,339                        4.26
Workhours                      2,764,767.33          2,591,313.59                        -6.27
FHP / Workhours                     753                   793                             5.33
TPH / Workhours                    1,311                 1,459                           11.24
Overtime                          274,910              104,235.10                       -62.08
Overtime Percent                    9.94                  4.02                          -59.55
Handling Ratio                      1.74                  1.84                            5.61
* Percent change may not add due to rounding

               Table 2: Philadelphia P&DC Delayed Processing (Reported)
                    All                                                  Package
                  Priority All FCM Periodicals            All Standard   Services     Total Delayed Mail
   FY 2007        1,300 1,309,575 123,298,245             59,075,536      46,268         183,730,924
   FY 2008           0     18,910  1,890,627              64,898,092        0            66,807,629
                    All                                                  Package
                  Priority All FCM Periodicals            All Standard   Services     Total Delayed Mail
  Percent of
   Change        -100.00      -98.56        -98.47       9.86            -100.00           -63.64
                                       Average of Group 1 Plants
                    All                                                  Package
                  Priority All FCM Periodicals            All Standard   Services     Total Delayed Mail
   FY 2007        37,175 3,403,047 7,666,866              57,073,274      75,138         68,255,501
   FY 2008        21,908 1,505,356 2,963,267              34,707,789      12,517         39,210,836
                    All                                                  Package
                  Priority All FCM Periodicals            All Standard   Services     Total Delayed Mail
  Percent of
   Change         -41.07      -55.76        -61.35          -39.19        -83.34           -42.55




                                                     33
Allegations Concerning Operations and Service                                    NO-MA-09-001
  in the Philadelphia Customer Service District


                      Table 3: Delayed Mail During Site Visit
 Mail Condition Date       12/8/2008   12/9/2008     12/10/2008                   3-Day Total
 Backflow Flats                             30,226                                      30,226
 Missent                                    35,333                                      35,333
 Loop                                                      10,900                       10,900
 First-Class Letters                                      363,330                      363,330
 First-Class Flats                                         14,906                       14,906
 Standard Letters              97,999     115,817         169,271                      383,087
 Standard Flats                22,336     234,539         653,341                      910,216
 Periodicals                    6,901       49,731         34,844                       91,476
 Package Services                 539          461           1,118                       2,118
 Small Parcels and Rolls       11,808                                                   11,808
 Total Delayed Pieces         139,583     466,107       1,247,710                    1,853,400
 First Handled Pieces       4,588,002   6,267,320       5,811,646                   16,666,968
 Percent Delayed               3.04%        7.44%         21.47%                       11.12%
 Unreported Delayed            11,808       65,559        374,230                      451,597
 Percent Delayed Not
 Reported                        0.26         1.05            6.44                         2.71
Identified by the OIG
Postal Service Headquarters Identified 426,398 of These Pieces

         Chart 1: Function 1 Overtime Comparison to Other Eastern Area Plants
                          FY 2007 through Quarter 1, FY 2009
20.00%


18.00%


16.00%


14.00%


12.00%


10.00%


 8.00%


 6.00%


 4.00%


 2.00%


 0.00%




                                            Philadelphia P & DC   Eastern Area




                                                      34
Allegations Concerning Operations and Service                                           NO-MA-09-001
  in the Philadelphia Customer Service District


                              Table 4: City Carrier Staffing Ratio
                   Philadelphia Customer
                       Service District                                     National
               # City      # Carrier     Carrier/Route      # City        # Carrier      Carrier/Route
              Carriers      Routes           Ratio         Carriers        Routes            Ratio
Q1 2008        5,108         3394              1.51        231,321        158,230                1.46
Q2 2008        5,070         3385              1.50        231,604        158,241                1.47
Q3 2008        5,095         3375              1.51        228,631        157,800                1.45
Q4 2008        5,066         3483              1.45        225,364        157,409                1.44
                    Average                    1.49                                              1.45



    Chart 2: Carriers Returning Prior to 1700 – Comparison to National Average


        100
    P    90
    e    80
    r    70
    c    60
         50
    e
         40
    n
         30
    t    20
    a    10
    g     0
    e




                   National Carriers Return Percent        Philadelphia Cariers Return Percent




                                                      35
Allegation
         ns Concerning g Operations and
                                    a   Service                            N
                                                                           NO-MA-09-001
                                                                                      1
  in the Ph
          hiladelphia Cu
                       ustomer Serviice District




                          Chart 3: Customer Service D
                                                    Delayed M
                                                            Mail Trend
        7,000,000 
        6,000,000 
    P   5,000,000 
    I   4,000,000 
    E
        3,000,000 
    C
        2,000,000 
    E
        1,000,000 
    S
               ‐




                                      Delayed M
                                              Mail Volume
                                                        e ‐ Philadelph
                                                                     hia



                Chartt 4: Philadelphia and
                                         d National Carrier
                                                    C       Volume Trends




                                                   36
Allegations Concerning Operations and Service                                               NO-MA-09-001
  in the Philadelphia Customer Service District



                           Chart 5: City Carrier Overtime Percentages

           25
       P
   O   E   20
   V   R
   E   C   15
   R   E
   T   N
           10
   I   T
   M   A
               5
   E   G
       E
               0
                    Q1     Q2     Q3      Q4     Q1     Q2     Q3     Q4     Q1     Q2     Q3     Q4     Q1 
                   FY06   FY06   FY06    FY06   FY07   FY07   FY07   FY07   FY08   FY08   FY08   FY08   FY09

                           National Overtime Percent           Philadelphia Overtime Percent


                                        Table 5: Trailers Examined

                           Number of            Contents of Trailers - Mail
                            Trailers            Transportation Equipment
Name of Facility           Examined                 (MTE)/Empty/Mail                     Comments
                                                                                   None contained mail
    Horsham                      4              4 - Empty
                                                                                   for Philadelphia P&DC
                                                8 - Empty
                                                4 - MTE                            None contained mail
Delaware P&DC                    24
                                                                                   for Philadelphia P&DC 
                                                12 - Contained Delaware
                                                Mail
                                                2 - Contained Mail for Los
                                                Angeles Bulk Mail Center &
                                                Cincinnati Bulk Mail Center
   Philadelphia                                 (1) trailer was dispatched         None contained mail
                                 26
       BMC                                      during observations                for Philadelphia P&DC
                                                4 – MTE
                                                19 - Empty
                                                31 - Empty
                                                8 - MTE
       Total                     54             14 - Contained Mail                  
                                                1 - Dispatched during
                                                observations




                                                        37
Allegations Concerning Operations and Service                                             NO-MA-09-001
  in the Philadelphia Customer Service District


              Chart 6: Overnight Service Scores for the Philadelphia P&DC
                            Compared to National Average

 98.00

 96.00

 94.00

 92.00

 90.00

 88.00

 86.00
          Gov     Gov    Gov     Gov      Gov     Gov        Gov    Gov     Gov    Gov    Gov    Gov
           Q1      Q2     Q3      Q4       Q1      Q2         Q3     Q4      Q1     Q2     Q3     Q4
          2006    2006   2006    2006     2007    2007       2007   2007    2008   2008   2008   2008
                                    National            Philadelphia P&DC


      Chart 7: Philadelphia P&DC Reject Rates Compared to National Average


                                            APPS Reject Rates


         16
         14
     P
     e 12
     r
     c 10
     e
     n  8
     t
        6
     a
     g  4
     e
          2
          0
                                  2007                                             2008



                                         Philadelphia                 National




                                                        38
Allegations Concerning Operations and Service                             NO-MA-09-001
  in the Philadelphia Customer Service District


                           APPENDIX H: MANAGEMENT ACTIONS

        •   At the request of the Eastern Area, Postal Service Headquarters provided
            webMCRS compliance reviews and on-site training in November and
            December 2008.
        •   The Philadelphia P&DC issued a Standard Operating Procedure for
            webMCRS reporting on December 12, 2008.
        •   The Eastern Area reviewed webMCRS reporting and established a
            standardized counting process in September 2008.
        •   In-Plant Support redesigned count sheets, clarified categories, and added
            trailers on hand to the categories.
        •   Supervisor verification and signatures were required on count sheets.
        •   Managers agreed to receive additional training.
        •   On December 15, 2008, district management issued a policy on unendorsed
            business bulk mail for all stations and branches.
        •   A verification procedure was established for waste mail in the P&DC.
        •   A routing label was created to transport appropriate mail to the Mail Recovery
            Center in Atlanta.
        •   The Philadelphia Main Post Office delivery unit contracted their own recycling
            company to handle undeliverable waste mail.
        •   Standardized instructions on manual distribution were issued for the handling
            of undeliverable mail.
        •   The Eastern Area and other districts provided assistance to evaluate mail
            conditions at Philadelphia Stations and Branches.
        •   Operations engineers from other Eastern Area facilities were assigned to
            review mailflow and staging beginning in October 2008.
        •   Outreach Centers were established in December 2008 to facilitate customer
            relationships. This included contacting each customer identified in news
            reports.
        •   Management began addressing maintenance deficiencies in December 2008.
        •   Laboratory specimen mailpieces are now being tracked, including the number
            processed, and reported daily to the plant manager.
        •   The Postal Business Center contacted the customers and other Postal
            Service facilities regarding labeling as hazardous material or HAZMAT.
        •   Maintenance supervisors and plant management assured us that the APPS
            was repaired.




                                                  39
Allegations Concerning Operations and Service                NO-MA-09-001
  in the Philadelphia Customer Service District


                         APPENDIX I. MANAGEMENT’S COMMENTS




                                                  40
Allegations Concerning Operations and Service          NO-MA-09-001
  in the Philadelphia Customer Service District




                                                  41
Allegations Concerning Operations and Service          NO-MA-09-001
  in the Philadelphia Customer Service District




                                                  42
Allegations Concerning Operations and Service          NO-MA-09-001
  in the Philadelphia Customer Service District




                                                  43
